C@OCKLE

2311 Douglas Street Le rie f E-Mail Address:
Omaha, Nebraska 68102-1214 ga 1B Est. 19 4 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-7
SEILA LAW LLC,
Petitioner,

ve
CONSUMER FINANCIAL PROTECTION BUREAU,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 21st day of January, 2020, send out
from Omaha, NE 3 package(s) containing 3 copies of the Brief of Amici Curiae Public Citizen, Americans for Financial
Reform Education Fund, Consumer Federation of America, Consumer Reports, National Association of Consumer
Advocates, Tzedek DC, and U.S. Public Interest Research Group Education Fund, Inc., in Support of Affirmance in the
above entitled case. All parties required to be served have been served by third-party commercial carrier for delivery within 3
calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
SCOTT L. NELSON
Counsel of Record
ALLISON M. ZIEVE
PUBLIC CITIZEN
LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
(202) 588-1000
snelson@citizen.org

Attorneys for Amici Curiae

Subscribed and sworn to before me this 21st day of January, 2020.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary ‘i \
State of Nebraska : Le Qudraw- ,
My Commission Expires Nov 24, 2020 .

Notary Public Affiant 39148

 

 
Kannon K. Shanmugam

Paul, Weiss, Rifkind, Wharton & Garrison LLP
2001 K Street, N.W.

Washington, DC 20006
kshanmugam@paulweiss.com

(202) 223-7300

Counsel of Record for Petitioner Seila Law LLC

Noel J. Francisco

Solicitor General

United States Department of Justice

950 Pennsylvania Avenue, NW

‘Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov

202-514-2217

Counsel of Record for Respondent Consumer Financial Protection Bureau

Paul D. Clement

Kirkland & Ellis LLP

1301 Pennsylvania Avenue, NW

Washington, DC 20004

paul.clement@kirkland.com

202-389-5000

Counsel of Record for Court-appointed amicus curiae in support of the judg-
ment below on the question presented by the petition
